Department of Homeland Security
   Ofﬁce of Inspector General


             Evaluation of DHS’ Information Security 

                  Program for Fiscal Year 2011 





OIG-11-113                                       September 2011
                                                           Office of Inspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                                     September 27, 2011

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by
amendment to the Inspector General Act of 1978. This is one of a series of audit,
inspection, and special reports prepared as part of our oversight responsibilities to
promote economy, efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of controls over the information
security program and practices at DHS. It is based on interviews with selected program
officials at the Department and components, direct observations, a review of applicable
documents, and system testing.

The recommendations herein have been developed to the best knowledge available to
our office, and have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed
to the preparation of this report.




                                     Frank W. Deffer
                                     Assistant Inspector General
                                     Information Technology Audits
Table of Contents/Abbreviations


Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Independent Evaluation ......................................................................................3 


Recommendations..............................................................................................................22 


Management Comments and OIG Analysis ......................................................................22 


Appendices
     Appendix A:                 Purpose, Scope, and Methodology.................................................25 

     Appendix B:                 Management Response to Draft Report .........................................27 

     Appendix C:                 System Inventory ...........................................................................29 

     Appendix D:                 Status of Risk Management Program ............................................32 

     Appendix E:                 Status of Configuration Management Program .............................34 

     Appendix F:                 Status of Incident Response and Reporting Program ....................36 

     Appendix G:                 Status of Security Training Program..............................................38 

     Appendix H:                 Status of Plans of Actions and Milestones Program ......................40 

     Appendix I:                 Status of Remote Access Program.................................................42 

     Appendix J:                 Status of Account and Identity Management Program ..................44 

     Appendix K:                 Status of Continuous Monitoring Program ....................................46 

     Appendix L:                 Status of Contingency Planning Program ......................................47 

     Appendix M:                 Status of Agency Program to Oversee Contractor Systems...........49 

     Appendix N:                 Status of Security Capital Planning Program ...................................51 

     Appendix O:                 Major Contributors to this Report ..................................................53 

     Appendix P:                 Report Distribution ........................................................................54 


Abbreviations
     ATO                         authority to operate   

     CBP                         Customs and Border Protection 

     CIO                         Chief Information Officer    

     CIS                         Citizenship and Immigration Services

     CISO                        Chief Information Security Officer    

     CPIC                        Capital Planning and Investment Control

     DHS                         Department of Homeland Security      

     FDCC                        Federal Desktop Core Configuration      

     FEMA                        Federal Emergency Management Agency

     FIPS                        Federal Information Processing Standards  

     FISMA                       Federal Information Security Management Act

     FLETC                       Federal Law Enforcement Training Center

Table of Contents/Abbreviations

  FY        fiscal year
  HSPD-12   Homeland Security Presidential Directive 12
  ICE       Immigration and Customs Enforcement
  I&A       Office of Intelligence and Analysis
  ISO       Information Security Office
  IT        information technology
  MGMT      Management Directorate
  NIST      National Institute of Standards and Technology
  NPPD      National Protection and Programs Directorate
  OIG       Office of Inspector General
  OMB       Office of Management and Budget
  PIV       Personal Identity Verification
  POA&M     Plan of Actions and Milestones
  S&T       Science and Technology
  SP        Special Publication
  TSA       Transportation Security Administration
  USCG      United States Coast Guard
  USGCB     United States Government Configuration Baseline
  USSS      United States Secret Service
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  We conducted an independent evaluation of the Department of
                  Homeland Security (DHS) information security program and
                  practices to comply with the requirements of the Federal
                  Information Security Management Act. In evaluating DHS’
                  progress in implementing its agency-wide information security
                  program, we specifically assessed the Department’s plans of action
                  and milestones, security authorization processes, and continuous
                  monitoring programs. Fieldwork was performed at both the
                  program and component levels.

                  DHS continues to improve and strengthen its security program.
                  During the past year, DHS developed and implemented the fiscal
                  year 2011 information security performance plan to focus on areas
                  that the Department would like to improve upon throughout the
                  year. Specifically, DHS identified in the performance plan several
                  key elements that are indicative of a strong security program, such
                  as plans of action and milestones weakness remediation.

                  While these efforts have resulted in some improvements,
                  components are still not executing all of the Department’s policies,
                  procedures, and practices. In addition, our review identified the
                  following more significant exceptions to a strong and effective
                  information security program: (1) systems are being authorized
                  though key information is missing or outdated; (2) plans of action
                  and milestones are not being created for all known information
                  security weaknesses or mitigated in a timely manner; and (3)
                  baseline security configurations are not being implemented for all
                  systems. Additional information security program areas that need
                  improvement include configuration management, incident
                  detection and analysis, specialized training, account and identity
                  management, continuous monitoring, and contingency planning.

                  We are making five recommendations to the Department. The
                  Chief Information Security Officer concurred with all of our
                  recommendations and has already begun to take actions to
                  implement them. The Department’s response is summarized and


            Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                          Page 1
               evaluated in the body of this report and included, in its entirety, as
               appendix B.


Background
        Due to the increasing threat to information systems and the highly
        networked nature of the federal computing environment, the Congress, in
        conjunction with the Office of Management and Budget (OMB), requires
        an annual review and reporting of agencies’ compliance with Federal
        Information Security Management Act (FISMA) requirements. FISMA
        focuses on the program management, implementation, and evaluation of
        the security of unclassified and national security systems.

        Recognizing the importance of information security to the economic and
        national security interests of the United States, the Congress enacted Title
        III of the E-Government Act of 2002 (Public Law 107-347,
        Sections 301-305) to improve security within the federal government.
        Information security means protecting information and information
        systems from unauthorized access, use, disclosure, disruption,
        modification, or destruction. Title III of the E-Government Act, entitled
        FISMA, provides a comprehensive framework to ensure the effectiveness
        of security controls over information resources that support federal
        operations and assets.

        FISMA requires each federal agency to develop, document, and
        implement an agency-wide security program. The agency’s security
        program should protect the information and the information systems that
        support the operations and assets of the agency, including those provided
        or managed by another agency, contractor, or other source. As specified
        in FISMA, agency heads are charged with conducting an annual
        evaluation of information programs and systems under their purview, as
        well as an assessment of related security policies and procedures. Offices
        of Inspector General (OIG) must independently evaluate the effectiveness
        of an agency’s information security program and practices on an annual
        basis.

        OMB issues updated instructions annually for agency and OIG reporting
        under FISMA. Our annual FISMA evaluation summarizes the results of
        our review of DHS’ information security program and practices based on
        the draft reporting guidance issued in June 2011.




         Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                       Page 2
                  The Chief Information Security Officer (CISO) leads the Information
                  Security Office (ISO) and is responsible for managing DHS’ information
                  security program. To aid in managing its security program, the CISO
                  developed the Fiscal Year 2011 DHS Information Security Performance
                  Plan to enhance DHS’ information security program and continue to make
                  additional improvements on existing processes, such as continuous
                  monitoring, system security authorizations, and plan of actions and
                  milestones (POA&M) remediation. DHS uses enterprise management
                  tools to collect and track data related to all unclassified and classified
                  POA&M activities, including weaknesses identified during
                  self-assessments and the security authorization process.1 DHS’ enterprise
                  management tools also collect data on other FISMA metrics, such as the
                  number of systems that have implemented DHS’ security baseline
                  configurations and the number of employees who have received
                  information technology (IT) security training.

Results of Independent Evaluation
                  Based on the requirements outlined in FISMA and the annual reporting
                  instructions, our independent evaluation focused on 11 key areas of DHS’
                  information security program. Specifically, we reviewed the
                  Department’s system inventory, risk management, configuration
                  management, incident response and reporting, security training, POA&M,
                  remote access, account and identity management, continuous monitoring,
                  contingency planning, and Capital Planning and Investment Control
                  (CPIC) programs across 13 components and offices.2 We separated the
                  results of our evaluation into these key areas. For each area, we identified
                  the progress that DHS has made since our fiscal year (FY) 2010 evaluation
                  and any issues that need to be addressed to be more successful in the
                  respective information security program area.



1
   According to National Institute of Standards and Technology (NIST) Special Publication (SP) 800-37 -
   Guide for Applying the Risk Management Framework to Federal Information Systems - A Security Life
   Cycle Approach, Revision 1, security authorization is the official management decision given by a senior
   organizational official to authorize operation of an information system and to explicitly accept the risk to
   organizational operations and assets, individuals, other organizations, and the nation based on the
   implementation of an agreed-upon set of security controls.
2	
   Customs and Border Protection (CBP), Citizenship and Immigration Services (CIS), Federal Emergency
   Management Agency (FEMA), Federal Law Enforcement Training Center (FLETC), Immigration and
   Customs Enforcement (ICE), Office of Intelligence and Analysis (I&A), Management Directorate
   (MGMT), National Protection and Programs Directorate (NPPD), OIG, Science and Technology (S&T),
   Transportation Security Administration (TSA), United States Coast Guard (USCG), and United States
   Secret Service (USSS).



                    Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                    Page 3
                   This report also includes the results of a limited number of systems
                   evaluated during the year and our on-going financial statement review.3 In
                   addition, it includes the results of our security audits at NPPD and TSA.4

           OVERALL PROGRESS

                   DHS continued to improve its information security program during
                   FY 2011. For example, the CISO:

                                 Developed the DHS IT Security Continuous Monitoring
                                 Strategy: An Enterprise View in January 2011. This document
                                 outlined the Department’s strategy for implementing an
                                 enterprise-wide continuous monitoring and response capability
                                 for IT security.

                                 Revised the Department’s baseline IT security policies and
                                 procedures in DHS Sensitive Systems Policy Directive 4300A
                                 and its companion, DHS 4300A Sensitive Systems Handbook to
                                 reflect the changes made in DHS security policies and various
                                 NIST guidance.

                                 Revised the FISMA scorecard to better evaluate the
                                 Department’s information security program with increased
                                 emphasis on continuous monitoring, further aligning with
                                 OMB and NIST priorities. The revised FISMA scorecard
                                 includes asset reporting, security authorization, weakness
                                 management, vulnerability management, configuration
                                 management, Security Operations Center effectiveness, and log
                                 integration. These seven metrics contribute to the components
                                 overall information security grade. See figure 1 for the
                                 Department’s July 2011 information security scorecard.




3	
     Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
     (OIG-11-103, August 2011).
4	
     Planning, Management, and Systems Issues Hinder DHS' Efforts To Protect Cyberspace and the Nation's
     Cyber Infrastructure (OIG-11-89, June 2011) and Improvements in Patch and Configuration
     Management Controls Can Better Protect TSA’s Wireless Network and Devices (OIG-11-99,
     July 2011).



                      Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                    Page 4
                         Figure 1: July 2011 FISMA Information Security Scorecard 





           OVERALL ISSUES TO BE ADDRESSED

                   Despite the actions taken by the CISO to improve the Department’s
                   overall information security program, we identified several issues that
                   should be addressed in order to strengthen DHS’ security posture. For
                   example, the CISO did not issue the Fiscal Year 2011 DHS Information
                   Security Performance Plan until June 2011. The delay in issuing the
                   performance plan has caused confusion among components, as they were
                   not sure which area of their information security programs they should
                   focus on, or which security controls they should test. One component
                   indicated that it had to delay its annual key control reviews until DHS
                   finalized the performance plan. Thus, the delay in issuing the
                   performance plan limited the components’ ability to complete their testing
                   requirements in FY 2011. According to ISO personnel, the delay in
                   issuing the performance plan was caused by OMB’s revised FISMA
                   reporting requirements, which emphasized “continuous monitoring.”5



5
    NIST defines “continuous monitoring” as maintaining ongoing awareness of information security,
    vulnerabilities, and threats to support organizational risk management decisions. Continuous monitoring,
    which is a critical aspect of the organization-wide risk management process, is most effective when
    automated mechanisms are employed where possible. It can support frequent updates to security plans,
    security assessment reports, POA&M, hardware and software inventories, and other system information.
    In addition, a well defined continuous monitoring strategy supports operational processes, such as
    incident response, configuration management, identity and access management, and strategies for
    addressing threats.



                      Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                    Page 5
                   Further, we determined that components are not satisfying all of the
                   Department’s information security policies, procedures, and practices. For
                   example, identified deficiencies (i.e., POA&M, security authorization)
                   revealed that not all components are sustaining their information security
                   programs on a year-round basis or performing continuous monitoring as
                   required. In addition, we determined that components have not
                   implemented all of the information system baseline configurations in
                   accordance with DHS policies and procedures. For example, we identified
                   the following deficiencies:

                                Components are operating information systems whose
                                authority to operate (ATO) has expired. For example, we
                                identified 49 unclassified systems with expired ATOs, and
                                some systems have been operating without a valid ATO since
                                2008.

                                As of July 2011, CIS is maintaining an overall FISMA
                                information security score of 34%.

                                Components have not incorporated all known information
                                security weaknesses into POA&Ms for the Department’s
                                unclassified and classified systems.

                                Artifacts supporting authorization of unclassified and classified
                                systems were missing key information or were outdated,
                                restricting the ability of authorizing officials to make credible
                                risk-based decisions.

                                Components have not implemented all required DHS baseline
                                configuration, Federal Desktop Core Configuration (FDCC),
                                and United States Government Configuration Baseline
                                (USGCB) settings on the information systems selected for
                                review. 6




6
    OMB Memorandum M-07-11 Implementation of Commonly Accepted Security Configurations for
    Windows Operating Systems requires federal agencies to implement minimum baseline FDCC settings on
    all Microsoft Windows XP workstations. USGCB replaces FDCC and provides the baseline settings for
    Microsoft Windows 7 and Internet Explorer 8 that federal agencies are required to implement for security
    reasons.



                     Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                   Page 6
System Inventory

      DHS continues to maintain and update its FISMA systems inventory,
      including agency and contractor systems, on an annual basis. In addition,
      DHS conducts site visits as part of its annual inventory update process.

             PROGRESS

                  As of June 2011, DHS has a total of 625 systems, which
                  include a mix of major applications and general support
                  systems that are classified as “Sensitive But Unclassified,”
                  “Secret,” and “Top Secret.”

                  As of June 2011, DHS has conducted 102 component site visits
                  as part of the annual refresh process.

             ISSUES TO BE ADDRESSED

                  As of July 2011, DHS has not established an automated
                  capability to keep track of the hardware devices and software
                  deployed at all component sites.

                  DHS did not determine whether components had developed
                  new classified systems during site visits as part of the annual
                  inventory refresh process. As a result, DHS cannot be sure that
                  it has an accurate inventory of its classified systems.

             See appendix C, System Inventory and appendix M, Status of
             Agency Program to Oversee Contractor Systems.

Risk Management Program

      As part of its risk management program, DHS follows the guidance
      outlined in NIST SP 800-37, Revision 1, Guide for Applying the Risk
      Management Framework to Federal Information Systems: A Security Life
      Cycle Approach and incorporated the security authorization process into
      the DHS Sensitive Systems Policy Directive 4300A. For national security
      systems, components follow the Defense Information Assurance
      Certification and Accreditation Process and DHS Sensitive Systems Policy
      Directive 4300B policy. Components are required to use the Department’s
      enterprise-wide management tools to incorporate NIST recommended
      security controls required for its system security authorizations. In
      addition, DHS requires components to upload security artifacts into its
      enterprise management tools to monitor the progress in authorizing


       Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                     Page 7
                   systems to operate. The artifacts include: ATO letter, system security
                   plan, security assessment report, security test and evaluation, contingency
                   plan, contingency plan test results, Federal Information Processing
                   Standards (FIPS) 199 determination, E-authentication determination,
                   privacy threshold analysis/privacy impact assessment, and NIST
                   SP 800-53 self-assessments.

                   For some of the systems that were granted ATO, the artifacts that are
                   required to support the authorization were either missing, incomplete, or
                   outdated. We identified a similar issue in our FY 2008, FY 2009, and FY
                   2010 FISMA reports.7

                            PROGRESS

                                The overall quality of security authorization documentation has
                                improved in FY 2011, compared with FY 2010. For example,
                                we identified fewer deficiencies within the security
                                authorization documentation for the systems that were selected
                                for review.

                            ISSUES TO BE ADDRESSED

                                We selected 28 systems from 12 components and offices to
                                evaluate the quality of documents that support DHS’ security
                                authorization process. Our review revealed that the component
                                CISOs have not performed adequate reviews to ensure that the
                                artifacts contain the required information to meet all applicable
                                DHS, OMB, and NIST guidelines. For some of the systems
                                that were granted ATO, the artifacts that are required to
                                support the authorization were either missing, incomplete, or
                                outdated. Without this information, agency officials cannot
                                make credible, risk-based decisions on whether to authorize the
                                system to operate. Specifically, we determined that:

                                    � Two operational systems did not have signed ATO
                                      letters.
                                    � Components did not complete the FIPS-199
                                      categorization worksheet tool correctly or did not
                                      update the categorization for three systems. The FIPS
                                      199 determination, when applied properly during the
7
    Evaluation of DHS’ Information Security Program for Fiscal Year 2008 (OIG-08-94, September 2008),
    Evaluation of DHS’ Information Security Program for Fiscal Year 2009 (OIG-09-109, September 2009),
    and Evaluation of DHS’ Information Security Program for Fiscal Year 2010 (OIG-11-01, October 2010).



                     Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                   Page 8
                                         risk assessment process, helps agency officials to select
                                         applicable controls for the information systems.
                                    �    For 17 system security plans, certain elements are
                                         missing, including sections that describe management
                                         plans, security controls, emergency changes, and
                                         incident handling procedures. In addition, we identified
                                         three instances where system security plans were out of
                                         date. The system security plan should be current,
                                         provide an overview of the information system, and
                                         describe the security controls implemented or planned
                                         to protect the system.
                                    �    Contingency plans and/or testing reports for six systems
                                         are missing certain elements, including the
                                         identification of alternate processing facilities, or
                                         restoration procedures, and data sensitivity handling
                                         procedures at the alternate site or off-site storage.
                                    �    Two systems have outdated or non-existing
                                         memorandums of understandings with organizations
                                         (external to the component) with which they are sharing
                                         data.
                                    �    Seven systems did not have completed and approved
                                         privacy threshold analyses.

                                During our NPPD audit, we reviewed the authorization
                                packages for two systems to determine whether the systems
                                were granted an ATO in compliance with applicable OMB,
                                NIST, and DHS requirements. We reported in June 2011 that
                                one system was operating without a valid ATO and its security
                                documentation was outdated.8

                            See appendix D for our assessment of DHS’ Risk Management
                            Program.

                   Plans of Action and Milestones Program

                            DHS requires components to create and maintain POA&Ms for all
                            known IT security weaknesses. In addition, DHS performs
                            automated reviews on its unclassified and classified POA&Ms for
                            accuracy and completeness and the results are provided to
                            components daily. Despite these efforts, components are not
                            entering and tracking all IT security weaknesses in DHS’

8
    Planning, Management, and Systems Issues Hinder DHS' Efforts To Protect Cyberspace and the Nation's
    Cyber Infrastructure (OIG-11-89, June 2011).



                     Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                   Page 9

                           unclassified and classified enterprise management tools, nor are all
                           of the data entered by the components accurate and updated in a
                           timely manner.

                           PROGRESS

                                Components have created POA&Ms for all 153 notice of
                                findings and recommendations for the weaknesses identified
                                during the FY 2010 financial statement audit.9

                           ISSUES TO BE ADDRESSED

                                Components are not correcting all deficiencies identified
                                during DHS’ POA&M quality reviews. Our review of DHS’
                                quality reports identified repeated deficiencies, such as
                                inaccurate milestones, lack of resources to mitigate the
                                weaknesses, and delays in resolving the POA&Ms that are not
                                corrected by the components. We identified similar problems
                                in our FY 2009 and FY 2010 FISMA reports.

                                In FY 2011, DHS did not monitor the adequacy of the
                                POA&Ms for its “Top Secret” systems. For example, DHS did
                                not perform any reviews or oversight functions on “Top
                                Secret” POA&Ms that are manually tracked outside of the
                                Department’s enterprise-management tools. As a result,
                                DHS cannot ensure that POA&Ms have been created for the
                                security vulnerabilities identified on its “Top Secret” systems
                                and are managed in accordance with the Department’s policies
                                and procedures.

                                DHS requires components to develop a POA&M for its
                                operational systems that have not received an ATO. We
                                identified instances where POA&Ms have not been created for
                                operational systems that have not received an ATO. For
                                example, one system has been operating since September 2008
                                without a valid ATO and no POA&M has been created to
                                obtain the authorization.

                                Based on our analysis of data from DHS’ enterprise
                                management tools, component CISOs and information system
                                security officers are not maintaining current information as to

9
    Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
    (OIG-11-103, August 2011).



                     Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                  Page 10

           the progress of security weakness remediation, and not all
           POA&Ms are being resolved in a timely manner. As of
           June 30, 2011, we identified the following deficiencies for
           POA&Ms that are classified as “Sensitive But Unclassified”
           and “Secret”.

      Sensitive But Unclassified POA&Ms

               � Components are not monitoring the status of their
                 high-priority POA&Ms or reviewing them for
                 consistency and completeness. DHS requires
                 component CISOs to monitor the progress of the
                 POA&M implementation and remediation efforts.
                 Specifically, component CISOs are required to review
                 and approve all priority 4 and priority 5 POA&Ms to
                 ensure that the weaknesses are properly prioritized, and
                 that appropriate resources have been identified for
                 remediation. Priority 4 weaknesses are assigned to
                 initial audit findings and priority 5 weaknesses are
                 assigned to repeat audit findings. As of June 30, 2011,
                 only 192 (68%) of 284 priority 4 and 5 POA&Ms have
                 been reviewed and approved by a component CISO.
               � Component CISOs are not updating information
                 concerning all weaknesses where the estimated
                 completion date has been delayed. Of the 4,559 open
                 POA&Ms with estimated completion dates, 768 (17%)
                 were delayed by at least 3 months (prior to
                 April 1, 2011). Furthermore, 255 POA&Ms had an
                 estimated completion date more than 1 year old, dating
                 as far back as January 2008.
               � DHS requires that a reasonable resources estimate of at
                 least $50 be provided to mitigate the weakness
                 identified. Resources required for the remediation of
                 103 (2%) of 4,559 open POA&Ms were either not
                 identified or did not meet the $50 requirement.
               � 399 (9%) of 4,559 open POA&Ms are scheduled to take
                 more than 2 years to mitigate the weaknesses. DHS
                 and OMB require POA&Ms to be completed timely.

      Secret POA&Ms

               � 37 of 70 open POA&Ms are delayed. For example, 28
                 (76%) of 37 delayed POA&Ms are more than 1 year
                 past due.


Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                             Page 11
                � 38 (54%) of 70 open POA&Ms have not been updated
                  within the past 90 days. DHS requires POA&Ms to be
                  updated at least monthly.

       See appendix H for the evaluation of DHS’ POA&M Program.

Configuration Management

       We reviewed 41 systems, including servers and databases to
       evaluate the compliance with DHS baseline configuration
       requirements. Additionally, we evaluated the compliance with
       FDCC and USGCB requirements at CIS, FEMA, FLETC, ICE,
       MGMT, NPPD, OIG, S&T, TSA, USCG and USSS. Results from
       our testing indicated that components have not implemented all of
       the required DHS baseline configuration settings. We reported a
       similar issue in our FY 2009 and FY 2010 reports.

       Additionally, we conducted testing across DHS’ wide-area
       network, known as OneNet, using Network Mapper to search for
       vulnerable ports and services to test the Security Operations
       Center’s response to an unannounced network scan. We also
       evaluated router configuration files on four gateway routers that
       provide access to OneNet.

       PROGRESS

            Three components (FLETC, TSA, and USCG) are more than
            90% compliant with FDCC configuration settings.

            Components have established pilot programs to deploy
            USGCB-compliant configuration settings on their Windows 7
            workstations.

       ISSUES TO BE ADDRESSED

            Results from our configuration reviews indicated that
            components had not fully configured their systems based on
            DHS’ secure baseline configuration guidelines. Components
            included CBP, CIS, FEMA, ICE, MGMT, NPPD, S&T, TSA,
            USCG, and USSS. Deficiencies identified include:

                � Insecure Windows authentication protocols are in use.




 Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                              Page 12
                                       Oracle databases were not consistently compliant with
                                        DHS secure baseline configuration guides. For
                                        example, our review of 8 databases revealed that 36 out
                                        of 80 settings were non-compliant.
                                       Linux password management is not in compliance with
                                        DHS guidance.
                                       Simple Network Management Protocol, a network
                                        management tool, is in use despite being expressly
                                        prohibited by DHS. We reported a similar issue in our
                                        FY 2010 report.

                                      Components have not fully implemented all FDCC settings.
                                      For example, we identified six specific FDCC settings (five
                                      Internet Explorer 7, one Microsoft Outlook) that were not
                                      applied at the components. If these settings are not
                                      implemented, DHS may be vulnerable to computer viruses
                                      or social engineering attacks. Figure 2 summarizes the
                                      Department’s FDCC compliance.
                                                                                      10
                                      Figure 2: Component FDCC Compliance




10
     DHS Headquarters, NPPD and S&T are all managed by the same policy. As a result, these three
     components will have identical co mpliance for FDCC and USGCB settings. CBP, ICE and USSS
     currently have no plans to implement an FDCC-co mp liant image and are instead focusing efforts on
     USGCB co mpliance.



                      Evaluation of DHS ’ Information Security Program for Fiscal Year 2011


                                                    Page 13

           Although components are developing and implementing
           USGCB-compliant Windows 7 images, no component is using
           Windows 7 as the primary operating system for its
           workstations. Further, none of the images that we evaluated
           were 100% USGCB compliant.

           Gateway routers for OneNet were not configured according to
           all DHS policies. The following deficiencies were identified:

               � The minimum password length requirement for the
                 local user on two routers was configured to one
                 character.
               � A weak password encryption algorithm is being used
                 for a local user on one router.
               � DHS guidance requires that only one local user account
                 be defined for disaster recovery when using an
                 authentication server. Two of the routers were
                 configured with two local user accounts. Having more
                 than one disaster recovery account is unnecessary and
                 creates additional avenues of attack.

           During our NPPD audit, we identified several system
           configuration and account access vulnerabilities that may lead
           to risks associated with internal and external threats,
           unauthorized access, and misuse of the Department’s critical
           infrastructure information.

           We reported in July 2011 that TSA had not implemented DHS
           baseline configuration controls on all of its wireless devices
           and supporting infrastructure systems.

      See appendix E for a summary of DHS’ configuration
      management.




Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                             Page 14
                 Incident Response and Reporting Program

                          DHS has established adequate incident detection, handling, and
                          analysis procedures. In addition, the number of all security
                          incidents reported by the DHS Security Operations Center has
                          increased by 13%, from 1,402 in FY 2010 to 1,589 to FY 2011.11
                          For example, the number of malicious code attacks on DHS
                          systems increased from 180 to 602 between 2008 and 2009.12
                          However, DHS has not fully implemented its department-wide
                          vulnerability assessment program to evaluate the security posture
                          at all components.

                          PROGRESS

                              DHS continues to implement its vulnerability assessment
                              program. For example, the DHS Security Operations Center
                              has the ability to perform full credential scanning on
                              workstations and servers at CBP, CIS, and FLETC.13

                              The DHS Security Operations Center logged all traffic
                              resulting from our unannounced scan on OneNet.

                          ISSUES TO BE ADDRESSED

                              DHS has not deployed its vulnerability assessment program
                              department-wide. The program includes a comprehensive
                              vulnerability alert, assessment, remediation, and reporting
                              process to effectively identify computer security vulnerabilities
                              and track mitigation efforts to resolution. However, the DHS
                              Security Operations Center has no access at FEMA, ICE, OIG,
                              S&T, USCG, and USSS. As a result, DHS cannot perform
                              vulnerability assessments on all component workstations and
                              servers to evaluate the effectiveness of controls implemented.

                              During FY 2011, I&A, NPPD, Office of Operations
                              Coordination and Planning, OIG, and USSS did not submit
                              weekly incident reports to the DHS Security Operations
                              Center, as required.

11
   We evaluated the number of incidents reported by the Security Operations Center between October 1st
   and May 31st for both FY 2010 and FY 2011.
12
   State of Cybersecurity at DHS, December 15, 2010.
13
   Full credential scanning involves unrestricted access to component networks and enables the use of
   software tools (i.e., Nessus, WebInspect) to perform comprehensive vulnerability scans.



                   Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                 Page 15
                                Although the DHS Security Operations Center logged all
                                traffic resulting from our unannounced scan on OneNet, the
                                scan was not immediately identified and terminated.

                            See appendix F for information regarding DHS’ Incident Response
                            and Reporting Program.

                   Security Training Program

                            The CISO has established a process to validate components’
                            security training and has taken a more active role in developing the
                            content for DHS training requirements. During FY 2011, DHS
                            developed and implemented specialized training courses for those
                            with significant IT security responsibilities. However, specific
                            training content for system owners and authorizing officials has yet
                            to be finalized.

                            PROGRESS

                                DHS has developed and implemented specialized training
                                courses for information system security officers and system
                                administrators in FY 2011. As of July 2011, DHS had
                                conducted eight information system security officer and two
                                system administrator training sessions.

                            ISSUES TO BE ADDRESSED

                                DHS has not yet finalized and implemented its specialized
                                training courses for system owners and authorizing officials.

                                DHS uses an enterprise management tool to identify and
                                track the status of specialized training for all personnel with
                                significant information security responsibilities, as described in
                                NIST SP 800-50 and NIST SP 800-16.14 Four components
                                (CIS, ISO, S&T, and USCG) are maintaining a completion
                                percentage of 35% or below for all personnel with significant
                                IT security responsibilities.




14
     NIST SP 800-50, Building an Information Technology Security Awareness and Training Program,
     October 2003 and NIST SP 800-16, Information Technology Security Training Requirements: A Role -
     and Performance-Based Model, April 1998.



                     Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                  Page 16
                              See appendix G for information regarding DHS’ Security Training
                              Program.

                     Remote Access Program

                              According to DHS policy, components are responsible for
                              managing all remote access and dial-in connections to their
                              systems through the use of two-factor authentication and audit
                              logging capabilities to protect sensitive information throughout
                              transmission. All components utilizing remote access have
                              developed policies to outline the controls needed to protect remote
                              connections (i.e., multi-factor authentication, firewalls) from
                              external threats.

                              See appendix I for DHS’ Remote Access Program.

                     Account and Identity Management Program

                              DHS does not have a centralized capability to identify users and
                              devices connected to its systems. Specifically, components are
                              currently maintaining their own account and identity management
                              programs. However, DHS plans to implement Homeland Security
                              Presidential Directive 12 (HSPD-12) personal identification
                              verification credentials enterprise-wide, which will be used to
                              provide agency-wide system access management by the end of
                              FY 2011.15

                              PROGRESS

                                  As of July 2011, DHS has issued more than 244,000 HSPD-12
                                  compliant cards across the Department.

                                  Five components (CIS, DHS Headquarters, FEMA, FLETC,
                                  and TSA) have issued HSPD-12 compliant cards to all
                                  employees and contractors.




15
     According to NIST FIPS 201-1, Personal Identity Verification (PIV) of Federal Employees and
     Contractors, March 2006, a personal identity verification card is a form of standard identification
     credentials issued by the Federal government to its employees and contractors. The personal identity
     verification credentials are intended to authenticate individuals who require access to federally controlled
     facilities, information systems, and applications.



                       Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                      Page 17
                         ISSUES TO BE ADDRESSED

                              OMB granted DHS an exception from the requirement that
                              agencies issue personal identity verification credentials to
                              current employees and contractors and use the credentials for
                              both physical and logical access by October 27, 2008.
                              However, DHS is not scheduled to complete the issuance of
                              HSPD-12 compliant cards to all its employees and contractors
                              until September 30, 2011, three years after OMB’s original due
                              date.16

                              In response to OMB’s requirement that agencies upgrade
                              existing physical and logical access control systems to use PIV
                              credentials by the beginning of FY 2012, the DHS Identity,
                              Credential and Access Management Program Management
                              Office requested components to develop a credential
                              implementation plan by July 31, 2011. 17 However, as of
                              August 2011, four components (CBP, DHS Headquarters,
                              FEMA, and USSS) have not submitted implementation plans.

                         See appendix J for DHS’ Account and Identity Management
                         Program.

                 Continuous Monitoring Program

                         During FY 2011, DHS made significant changes to its
                         enterprise-wide continuous monitoring program. For example, in
                         FY 2010, the Department’s continuous monitoring program
                         focused on key control reviews, contingency testing, incident
                         response reporting, and ongoing annual security control testing on
                         its FISMA reportable information systems. However, beginning in
                         FY 2011, DHS shifted its focus on continuous monitoring to the
                         asset level, which includes the monitoring of system
                         vulnerabilities, configuration settings, malware, patch information,
                         hardware, and software installed on its systems. As of August
                         2011, CISO has performed 60 critical control reviews on selected
                         information systems to ensure that key controls have been



16
   Resource and Security Issues Hinder DHS' Implementation of Homeland Security Presidential Directive
   12 (OIG-10-40, January 2010).
17
   OMB Memorandum M-11-11, Continued Implementation of Homeland Security Presidential Directive
   12– Policy for a Common Identification Standard for Federal Employees and Contractors, February 3,
   2011.



                   Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                Page 18
                             implemented and to help components identify potential
                             weaknesses or vulnerabilities.

                             PROGRESS

                                 DHS has developed policies and procedures to implement its
                                 continuous monitoring functions and requirements. For
                                 example, the CISO developed the DHS IT Security Continuous
                                 Monitoring Strategy: An Enterprise View in January 2011.

                                 As part of its effort to establish a robust, enterprise-wide
                                 continuous monitoring program, DHS has revised its
                                 information security scorecard to include asset reporting,
                                 Security Operations Center effectiveness, and log integration.

                             ISSUES TO BE ADDRESSED

                                 Self-assessments have yet to be completed for 13 systems as
                                 DHS has not identified the key controls.

                                 DHS and its components have not established a real-time and
                                 automated continuous monitoring capability to keep track of all
                                 hardware and network devices, external connections, and
                                 software associated with their information systems.

                                 As of June 2011, three components (CIS, NPPD, and USSS)
                                 have information security scores of 60% or below for the
                                 Security Operations Center metric.18

                                 Components have not provided authorizing officials with
                                 up-to-date security documentation. For example, our review of
                                 28 system security plans identified three instances where
                                 documentation was out of date. Without current information,
                                 authorizing officials cannot make a credible risk-based
                                 decision on whether to authorize the system.

                             See appendix K for DHS’ Continuous Monitoring Program.



18
     Security Operations Center effectiveness is a key metric for the Department’s continuous monitoring
     program. Several factors are included in this metric, including 1) participation in daily headquarters
     security operations center calls; 2) access to classified networks within 30 minutes; 3) development of
     service-level agreements between components and Security Operations Center; 4) monthly incident
     reviews; and 5) components’ ability to provide 24x7x365 continuous monitoring and real-time response.



                      Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                    Page 19

Contingency Planning Program

       DHS has established and is maintaining an entity-wide business
       continuity and contingency planning program. However,
       components have not complied with all DHS’ contingency
       planning requirements.

       PROGRESS

            DHS has developed training, testing, and exercise approaches
            for its business continuity and disaster recovery programs. For
            example, DHS and its components participated in the federal
            government continuity exercise in June 2011 to test activation
            continuity plans, systems and procedures, and mission-essential
            functions.

            DHS has developed a business impact assessment that
            incorporates the Department’s mission essential functions and
            primary mission essential functions.

       ISSUES TO BE ADDRESSED

            DHS has not updated the Department of Homeland Security
            Headquarters Continuity of Operations Plan since 2008.
            According to an official from the DHS Business Continuity
            and Emergency Preparedness Branch, the continuity plan is
            being revised.

            As part of the Department’s overall contingency planning and
            disaster recovery efforts, DHS requires an IT contingency plan
            be developed for all IT systems, detailing how the system will
            be recovered in the event of an emergency or disaster. Our
            review of 28 security authorization packages revealed that
            contingency plans and/or testing reports for six systems are
            missing certain elements, including the identification of
            alternate processing facilities, or restoration procedures, and
            data sensitivity handling procedures at the alternate site or
            offsite storage. In addition, one contingency plan is out of
            date.

       See appendix L for DHS’ Contingency Planning Program.




 Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                              Page 20

                   Security Capital Planning Program

                            DHS bases its CPIC process on OMB’s Circular A-11,
                            Part 7 - Planning, Budgeting, Acquisition, and Management of
                            Capital Assets which defines the policies for planning, budgeting,
                            acquiring, and managing federal capital assets.19 In addition, DHS
                            developed the CPIC Guide in August 2010. The guide provides
                            components with policies and procedures for selecting, monitoring,
                            and evaluating the Department’s IT and non-IT investments to
                            ensure that each investment is successfully managed, cost
                            effective, and supports DHS’ mission and strategic goals. In
                            addition, DHS has also implemented an Information Technology
                            Acquisition Review process which requires that any proposed IT
                            acquisition of $2.5 million and above be reviewed and approved by
                            the DHS Chief Information Officer (CIO). Finally, DHS has
                            developed an automated process to help ensure that the
                            Department’s IT and non-IT investments are successfully
                            managed, cost effective, and support DHS’ mission and strategic
                            goals.

                            PROGRESS

                                 In January 2011, DHS issued the DHS Capital Planning &
                                 Investment Control - OMB Exhibit 300/DHS Business Case
                                 Guidebook to provide agency program and investment
                                 managers with guidance and best practices for preparing the
                                 OMB Exhibit 300/DHS Business Case.

                                 DHS requires components to complete an Exhibit 300 for all
                                 major IT investments, which includes estimated information
                                 security costs. During FY 2011, the Department completed 94
                                 Exhibit 300s for its major IT investments.

                                 DHS has developed the FY 2012 Exhibit 53B which identifies
                                 the Department’s enterprise-wide information security costs for
                                 its IT investments. For example, the FY 2012 Exhibit 53B
                                 identifies the staffing costs for personnel with information
                                 security responsibilities and costs associated with IT security
                                 tools (i.e., anti-virus software, intrusion detection systems, and
                                 web-filtering software), annual FISMA testing, network


19
     OMB’s Circular A-11, Part 7 – Planning, Budgeting, Acquisition, and Management of Capital Assets,
     June 2008.



                      Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                   Page 21

            penetration, security awareness training, and the authorization
            of an information system.

Recommendations
       We recommend that the CISO:

       Recommendation #1: Improve the ISO review process to ensure
       that POA&Ms, including those for classified systems, are complete
       and current.

       Recommendation #2: Include all applicable controls in the
       security documentation when authorizing systems. Systems
       authorized with outdated documents or without all applicable
       controls should not be accepted by the Department.

       Recommendation #3: Improve the process to implement and
       maintain DHS baseline configuration requirements on all systems.
       The process should include testing and the use of automated tools
       and security templates.

       Recommendation #4: Evaluate and revise the Department’s
       current FDCC implementation strategy to ensure that the
       requirements outlined in OMB M-07-11 and M-07-18 are
       implemented expeditiously.

       Recommendation #5: In accordance with applicable OMB and
       NIST guidance, develop a strategy to implement an automated
       continuous monitoring process for tracking the Department’s
       inventory, including hardware devices, external connections, and
       software installed on DHS systems. In addition, the continuous
       monitoring program should include performing periodic testing to
       evaluate the security posture at all components.


Management Comments and OIG Analysis
       Management Comments to Recommendation #1
       DHS concurred with recommendation 1. The Information Security
       Office’s (ISO) POA&M process is being further improved to
       ensure that all POA&Ms, including those POA&Ms for classified
       systems, are complete and current. Improvements include the
       implementation of the FY 2011 Information Security Performance



 Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                              Page 22

      Plan automated POA&M quality review checks. These include
      checking for the existence of POA&Ms for identified security
      control weaknesses, timely updates and completion of POA&Ms,
      and reasonableness of estimated remediation costs. Manual
      reviews of POA&Ms are also being conducted to ensure they meet
      the remaining criteria identified in the DHS 4300A Sensitive
      Systems Handbook, POA&M Process Guide.

      OIG Analysis
      We agree that the steps that DHS is taking, and plans to take, begin
      to satisfy this recommendation. This recommendation will remain
      open until DHS provides supporting documentation that all
      planned corrective actions are completed.

      Management Comments to Recommendation #2
      DHS concurred with recommendation 2. The security document
      templates are generated with the applicable controls by the DHS
      security authorization tool at the time the security authorization
      process is initiated. Enhancements to the DHS compliance tool
      scheduled for the end of FY 2011 will implement more stringent
      controls that prevent the upload of outdated documents.
      Additionally, the required security authorization documents are
      reviewed by the ISO Document Review Team to ensure that all
      applicable controls are included and adequately addressed.
      Documents identified as outdated or which lack all applicable
      controls by the Team are returned to the Component for corrective
      action.

      OIG Analysis
      We agree that the steps that DHS is taking, and plans to take, begin
      to satisfy this recommendation. This recommendation will remain
      open until DHS provides supporting documentation that all
      planned corrective actions are completed.

      Management Comments to Recommendation #3
      DHS concurred with recommendation 3. In FY 2011,
      configuration management focused on establishing and
      maintaining consistency of baseline configurations and inventories
      of organizational information systems. The CISO’s strategy for
      achieving automated compliance reporting of baseline
      configuration requirements was described in the “IT Security
      Continuous Monitoring Strategy: An Enterprise View” and
      implemented in FY2011 as part of the continuous monitoring High
      Priority Initiative 11-14. Additionally, the DHS FY2011


Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                             Page 23

      Information Security Scorecard was revised to show Component
      status towards meeting the DHS configuration requirements.
      Periodic testing and use of automated tools and security templates
      to evaluate the security posture at DHS are also being implemented
      as part of the strategy.

      OIG Analysis
      We agree that the steps that DHS is taking, and plans to take, begin
      to satisfy this recommendation. This recommendation will remain
      open until DHS provides supporting documentation that all
      planned corrective actions are completed.

      Management Comments to Recommendation #4
      DHS concurred with recommendation 4. DHS continues to make
      progress in implementing the FDCC requirements outlined in
      OMB M-07-11 and M-07-18. The Desktop Working Group tracks
      and monitors component progress on FDCC implementation. The
      expected completion date for implementing FDCC has been
      revised to December 31, 2011, for all DHS components.

      OIG Analysis
      We agree that the steps that DHS is taking, and plans to take, begin
      to satisfy this recommendation. This recommendation will remain
      open until DHS provides supporting documentation that all
      planned corrective actions are completed.

      Management Comments to Recommendation #5
      DHS concurred with recommendation 5. The CISO has developed
      and issued “IT Security Continuous Monitoring Strategy: An
      Enterprise View,” v1.0, to achieve an automated and real-time
      monitoring process for the Department’s inventory, including
      hardware devices, external connections, and software installed on
      its systems that complies with applicable OMB and NIST
      guidance. The strategy also addresses the need to perform periodic
      testing to evaluate the security posture at DHS.

      OIG Analysis
      We agree that the steps that DHS is taking, and plans to take, begin
      to satisfy this recommendation. We consider this recommendation
      resolved and closed.




Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                             Page 24

Appendix A
Purpose, Scope, and Methodology

                    The objective of this review was to determine whether DHS has
                    developed adequate and effective information security policies,
                    procedures, and practices, in compliance with FISMA. In addition,
                    we evaluated DHS’ progress in developing, managing, and
                    implementing its information security program.

                    Our independent evaluation focused on DHS' information security
                    program, the requirements outlined in FISMA and draft FY 2011
                    reporting instructions dated June 2011. We conducted our
                    fieldwork at the departmental level and at DHS' organizational
                    components and offices, including CBP, CIS, FEMA, FLETC,
                    I&A, ICE, MGMT, NPPD, OIG, S&T, TSA, USCG, and USSS.

                    In addition, we conducted reviews of DHS’ information systems
                    and security program-related areas throughout FY 2011. This
                    report includes the results of a limited number of systems
                    evaluated during the year and our on-going financial statement
                    review, including our security audits at NPPD and TSA.

                    As part of our evaluation of DHS' compliance with FISMA, we
                    assessed DHS and its components with the security requirements
                    mandated by FISMA and other federal information security
                    policies, procedures, standards, and guidelines. Specifically, we:
                    (1) used last year's FISMA independent evaluation as a baseline
                    for this year's evaluation; (2) reviewed policies, procedures, and
                    practices that DHS has implemented at the program and
                    component levels; (3) reviewed DHS’ POA&M process to ensure
                    that all security weaknesses are identified, tracked, and addressed;
                    (4) reviewed the processes and status of DHS’ department-wide
                    information security program, including system security
                    authorization, contingency planning, continuous monitoring,
                    incident response, identity management, inventory, security
                    training, system reviews, and remote access; and, (5) developed
                    our independent evaluation of DHS’ information security program.

                    We reviewed the quality of security authorization packages for a
                    sample of 28 systems at CBP, CIS, FEMA, FLETC, I&A, ICE,
                    MGMT, NPPD, OIG, S&T, TSA, USCG, and USSS, to ensure that
                    all of the required documents were completed prior to system
                    authorization. In addition, we evaluated the implementation of
                    DHS’ baseline configurations and compliance with selected NIST
                    SP 800-53 controls for 41 systems at CBP, CIS, FEMA, I&A, ICE,
                    MGMT, NPPD, S&T, TSA, USCG, and USSS. FDCC and



              Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                           Page 25

Appendix A
Purpose, Scope, and Methodology

                    USGCB settings for 16 systems were also reviewed at these 11
                    components.

                    We conducted our evaluation between April and August 2011
                    under the authority of the Inspector General Act of 1978, as
                    amended, and according to the Quality Standards for
                    Inspections issued by the President’s Council on Integrity and
                    Efficiency. Major OIG contributors to the evaluation are
                    identified in appendix O.

                    The principal OIG point of contact for the evaluation is
                    Frank W. Deffer, Assistant Inspector General, IT Audits at
                    (202) 254-4041.




              Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                           Page 26

Appendix B
Management Response to Draft Report



                                                                              U.S. l)~pll r!l11 t n! or lIoRleiHnd Stcuri!)'
                                                                              Washington. DC 20528




                                                                   i~)' Homeland
                                                                   ~g- Security
                                        sa>   0 6 2811

                  RANDUM FOR,           Frank Deffer
                                        Assistant Inspector General
                                        In formation Technology Audits

          FROM,                         Robert West    ~ \...'--"-~
                                        Chie f Information Security Officer

         SUBJECT,                       Response to OIG Draft Report: Eva/uation ofDHS ' " yormation
                                        Secllrity Program/or Fiscal Year 2011 - For Official Use Only
                                        O IG Project No. II -039- IT A-MGMT

         Thi s memorandum responds to the Office of Inspector General draft report titled , Evaluation of
         DflS ' In/ormation Security Program/or Fiscal rear 2011 - For Official Use Only. dated
         September I, 2011.

         The Office of Chief Information Officer concurs with the five recommendations within the
         report. The following actions are already underway to address these recommendations.

          Recommendation # 1: Improve the ISO review process to ensure that POA&M s, including those
          for classified systems, are complete and current.

         DHS CISO concurs: The Information Security Office (ISO) plan of actions and mi lestones
         (POA&M) process is being further improved to ensure that all POA&Ms, including those
         POA&Ms for classified systems, are complete and current. Improvements include the
         implementat ion of the FY 201 J In/ormation Security Performance Plan automated POA&M
         quality review checks. These include checking for the ex istence of POA&Ms for identified
         security control weaknesses, timely updates and completion of POA&Ms, and reasonableness of
         estimated remediation costs. Manual reviews of POA&Ms are also being conducted to ensure
         they meet the rcmaining criteria identified in the DHS 4300A Sellsilive Systems Handbook,
         POA& ,V1 Process Guide.

          Recommendation #2: Include all appl icable controls in the security documentation when
          authorizing systems. Systems authorized with outdated documents or wi thout all applicable
          controls should not be accepted by the department.

          DHS C ISO concurs: The security document templates are generated with the applicable
          controls by the DHS security authorization tool at the time the security authorization process is
          initiated. Enhancements to the DHS compliance tool scheduled fo r the end o f FY 20 II will




                 Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                       Page 27

Appendix B
Management Response to Draft Report



                     more stringent controls that prevent the upload of outdated documents. Add itionall y,
         the required security authorization documents are reviewed by the ISO Document Review Team
         to ensure that all applicable control s arc included and adequately addressed . Documents
         identified as outdated or lack all applicable controls by the Team are returned to the Component
         for corrective action.

         Recommendation #3: Improve the process to implement and maintain DHS baseline
         configuration requirements on all systems: The process should include testing and the use of
         automated tools and security templates.

         OHS elso concurs: In FY20 11 , configuration management focused on establi shing and
         maintaining consistency of base line configurati ons and inventories of organizational information
         systems. The CISO' s strategy fo r achieving automated compliance reporting of base line
         configuration requirements was described in the "IT Security CuntillllOlis Monitoring Strategy:
         An Enterprise View " and implemented in FY20 11 as part of the continuous monitoring High
         Priority Initiati ve 11- 14. Add itionall y, the DI-IS FY2011information Security Scorecard W,IS
         revised to show Component stat LI S towards meeting the DHS confi guration requirements.
         Periodic testing and lise of automated tools and security templates to evaluate the security
         post ure at DHS are also being implemented as part of the strategy.

         Recommendation #4: Evaluate and revise the department 's current FDCC implementation
         strategy to ensure that the requirements outlined in OMB M-07- ll and M-07-1B are
         implemented expeditiollsly.

         OHS elso concurs: DI-I S continues to make progress in implementing the FDCC requirements
         out lined in OMB M-07-11 and M-07- IS. The Desktop Working Group tracks and monitors
         component progress on Federal Desktop Core Configuration (FDCC) implementation. The
         expected completion date for implementing FDCC has been revised to December 3 1, 20 II , for
         all DH S components.

         Recommcndalion #5: In accordance with applicable OMB and NIST guidance, develop a
         strategy to implement an automated continuous monitoring process for tracking the department 's
         inventory, including hardware devices, extemal connections, and so ftware installed on DH S
         systems. In addition, the continuous monitoring program should include performing periodic
         testing to evaluate the security posture at all components.

         OHS elso concurs: The e lSO has developed and issued " IT Security Continuous Monituring
         Strategy: An Enterprise View ", v 1.0, to achieve an automated and real-time monitoring process
         fo r the department ' s inventory, including hardware devices, extemal connections, and so ftware
         installed on its systems that complies with appl icable OMB and NIST guidance. The strategy
         also addresses the need to perform periodic testing to evaluate the security posture at DHS.

         Should you have any questions, please call me at (202) 357-6 110, or your staff may contact
         Emery Csulak, Director of Compliance and Technology at (202) 357-6 11 3.

         cc: Chief Information Officer
             Component CIOs
             Component CISOs




                Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                     Page 28

Appendix C
System Inventory

                                                               Section 1: DHS System Inventory as of June 2011
                               a.                   b.                     c.                   d.                       e.                      f.
                         Agency Systems     Contractor Systems     Total Number of     Number of systems      Number of systems         Number of systems
                                                                       Systems          receiving authority     for which security           for which
                                                                     (Agency and            to operate         controls have been       contingency plans
                                                                 Contractor systems)                          tested and reviewed       have been tested in
                                                                     (Column A +                                 in the past year        accordance with
                                                                      Column B)                                                                policy




           FIPS 199                                                               Total
                                  Number               Number                                            Number               Number               Number
 Bureau     System                                                   Total       Number
                        Number   Reviewed   Number    Reviewed                              Number      Reviewed    Number   Reviewed   Number    Reviewed
 Name       Impact                                                  Number      Reviewed
                                  by OIG               by OIG                                            by OIG               by OIG               by OIG
             Level                                                               by OIG
   CBP       High         15        3         0            0          15            3          15           3         13        3         13          2
           Moderate       48        2         1            0          49            2          46           2         42        2         42          2
              Low          1        0         2            0           3            0           2           0          2        0          1          0
              Not
                          1         0         0            0           1              0         0           0         0         0         0           0
          Categorized
           Sub-total      65        5         3            0          68              5        63           5         57        5         56          4
   CIS       High          4        1         5            1           9              2         9           2          9        2          3          2
           Moderate       19        1         16           2          35              3        23           2         26        3         24          3
             Low          1         0         3            1           4              1         4           1         4         1         4           0
              Not
                          2         0         0            0           2              0         0           0         0         0         0           0
          Categorized
           Sub-total      26        2         24           4          50              6        36           5         39        6         31          5
  DHSHQ      High          8        1         8            0          16              1        14           1         6         1         13          1
           Moderate       11        0         9            1          20              1        19           1         8         1         13          1
             Low           0        0         3            0           3              0         3           0         1         0          3          0
              Not
                          3         0         3            0           6              0         5           0         3         0         1           0
          Categorized
           Sub-Total      22        1         23           1          45              2        41           2         18        2         30          2
  FEMA       High         19        2          3           0          22              2        17           1         18        2         10          2
           Moderate       32        3         14           0          46              3        44           3         41        3         33          3
             Low           4        0          1           0           5              0         4           0          3        0          3          0




                                            Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                                           Page 29

Appendix C
System Inventory

              Not
                        10   0     0            0          10              0         5           0       6    0   2    0
          Categorized
           Sub-total    65   5     18           0          83              5        70           4       68   5   48   5
  FLETC      High        0   0      0           0           0              0         0           0        0   0    0   0
           Moderate     13   4      1           0          14              4        13           4       11   4   14   3
             Low         0   0      0           0           0              0         0           0        0   0    0   0
              Not
                        0    0     0            0           0              0         0           0       0    0   0    0
          Categorized
           Sub-total    13   4      1           0          14              4        13           4       11   4   14   3
   ICE       High       12   1      1           0          13              1        11           1        9   1    8   0
           Moderate     31   3     15           0          46              3        41           3       31   3   33   1
             Low         3   0      0           0           3              0         3           0        2   0    3   0
              Not
                        1    0     1            0           2              0         1           0       0    0   0    0
          Categorized
           Sub-total    47   4     17           0          64              4        56           4       42   4   44   1
  NPPD       High        4   1      8           2          12              3         7           3        9   3    9   3
           Moderate     5    0     21           1          26              1        26           1       24   1   22   1
             Low         1   0      6           0           7              0         3           0        5   0    5   0
              Not
                        1    0     0            0           1              0         1           0       0    0   1    0
          Categorized
           Sub-total    11   1     35           3          46              4        37           4       38   4   37   4
   OIG       High        2   1      0           0           2              1         2           1        1   1    1   1
           Moderate     0    0      0           0           0              0         0           0        0   0    0   0
             Low         0   0      0           0           0              0         0           0        0   0    0   0
              Not
                        1    0     0            0           1              0         1           0       0    0   0    0
          Categorized
           Sub-total    3    1      0           0           3              1         3           1        1   1    1   1
   S&T       High       1    0      0           0           1              0         1           0        1   0    1   0
           Moderate     6    0     13           1          19              1        19           1       15   1   18   1
             Low        2    0      2           0           4              0         3           0        3   0    4   0
              Not
                        2    0     0            0           2              0         1           0       2    0   2    0
          Categorized
           Sub-total    11   0     15           1          26              1        24           1       21   1   25   1
   TSA       High       20   3      3           0          23              3        23           3       23   3   23   3
           Moderate     28   2     16           0          44              2        44           2       44   2   44   2
             Low         6   0      2           0           8              0         8           0        8   0    8   0



                                 Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                                Page 30

Appendix C
System Inventory

               Not
                          4    0      0            0           4               0        4           0        3    0     1    0
           Categorized
            Sub-total    58    5      21           0          79               5       79           5       78    5    76    5
  USCG        High        5    1       5           0          10               1       10           1        5    1    10    1
            Moderate     55    4      20           3          75               7       65           7       39    6    62    5
              Low        13    0       2           0          15               0        9           0        6    0    13    0
               Not
                         36    0      0            0          36               0       36           0       19    0    2     0
           Categorized
            Sub-total    109   5      27           3          136              8      120           8       69    7    87    6
  USSS        High        4    2       0           0           4               2       3            2        3    2     2    2
            Moderate      6    0       0           0           6               0       6            0        6    0     3    0
              Low         1    0       0           0           1               0       1            0        1    0     0    0
               Not
                          0    0      0            0           0               0        0           0        0    0     0    0
           Categorized
            Sub-total    11    2      0            0          11               2       10           2       10    2     5    2
  Agency
              High       94    16     33           3          127              19     112          18       97    19   93    17
  Totals
            Moderate     254   19    126           8          380              27     346          26       287   26   308   22
              Low        32     0    21            1          53                1     40            1        35    1   44     0
               Not
                         61    0      4            0          65               0       54           0       33    0    9     0
           Categorized
              Total      441   35    184          12          625              47     552          45       452   46   454   39




                                    Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                                    Page 31

 Appendix D
 Status of Risk Management Program

                             Section 2: Status of Risk Management Program
                                                                                                       Response:
1. Check one:
 A. The Agency has established and is maintaining a risk management program that is consistent
    with FISMA requirements, OMB policy, and applicable NIST guidelines. Although
    improvement opportunities may have been identified by the OIG, the program includes the
    following attributes:
    1. Documented and centrally accessible policies and procedures for risk management,
         including descriptions of the roles and responsibilities of participants in this process.
    2. Addresses risk from an organizational perspective with the development of a comprehensive
         governance structure and organization-wide risk management strategy as described in NIST
         800-37, Rev. 1.
    3. Addresses risk from a mission and business process perspective and is guided by the risk
         decisions at the organizational perspective, as described in NIST 800-37, Rev.1.
    4. Addresses risk from an information system perspective and is guided by the risk decisions at
         the organizational perspective and the mission and business perspective, as described in
         NIST 800-37, Rev. 1.
    5. Categorizes information systems in accordance with government policies.
    6. Selects an appropriately tailored set of baseline security controls.
    7. Implements the tailored set of baseline security controls and describes how the controls are
         employed within the information system and its environment of operation.
    8. Assesses the security controls using appropriate assessment procedures to determine the
         extent to which the controls are implemented correctly, operating as intended, and
         producing the desired outcome with respect to meeting the security requirements for the          �
         system.
    9. Authorizes information system operation based on a determination of the risk to
         organizational operations and assets, individuals, other organizations, and the Nation
         resulting from the operation of the information system and the decision that this risk is
         acceptable.
    10. Ensures information security controls are monitored on an ongoing basis including assessing
         control effectiveness, documenting changes to the system or its environment of operation,
         conducting security impact analyses of the associated changes, and reporting the security
         state of the system to designated organizational officials.
    11. Information system specific risks (tactical), mission/business specific risks and
         organizational level (strategic) risks are communicated to appropriate levels of the
         organization.
    12. Senior Officials are briefed on threat activity on a regular basis by appropriate personnel.
         (e.g., CISO).
    13. Prescribes the active involvement of information system owners and common control
         providers, chief information officers, senior information security officers, authorizing
         officials, and other roles as applicable in the ongoing management of information system-
         related security risks.
    14. Security authorization package contains system security plan, security assessment report,
         and POA&M in accordance with government policies.
    B. The Agency has established and is maintaining a risk management program. However, the
         Agency needs to make significant improvements as noted below.
    C. The Agency has not established a risk management program.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                     Page 32

 Appendix D
 Status of Risk Management Program

2. If B. is checked above, check areas that need significant improvement:
      a. Risk Management policy is not fully developed.
      b. Risk Management procedures are not fully developed, sufficiently detailed (SP 800-37,
          SP 800-39, SP 800-53).
      c. Risk Management procedures are not consistently implemented in accordance with
          government policies (SP 800-37, SP 800-39, SP 800-53).
      d. A comprehensive governance structure and Agency-wide risk management strategy has not
          been fully developed in accordance with government policies (SP 800-37, SP 800-39, SP
          800-53).
      e. Risks from a mission and business process perspective are not addressed (SP 800-37,
          SP 800-39, SP 800-53).
      f. Information systems are not properly categorized (FIPS 199/SP 800-60).
      g. Appropriately tailored baseline security controls are not applied to information systems in
          accordance with government policies (FIPS 200/SP 800-53).
      h. Risk assessments are not conducted in accordance with government policies (SP 800-30).
      i. Security control baselines are not appropriately tailored to individual information systems
          in accordance with government policies (SP 800-53).
      j. The communication of information system specific risks, mission/business specific risks and
          organizational level (strategic) risks to appropriate levels of the organization is not in
          accordance with government policies.
      k. The process to assess security control effectiveness is not in accordance with government
          policies (SP800-53A).
      l. The process to determine risk to agency operations, agency assets, or individuals, or to
          authorize information systems to operate is not in accordance with government policies
          (SP 800-37).
      m. The process to continuously monitor changes to information systems that may necessitate
          reassessment of control effectiveness is not in accordance with government policies
          (SP 800-37).
      n. Security plan is not in accordance with government policies (SP 800-18, SP 800-37).
      o. Security assessment report is not in accordance with government policies (SP 800-53A,
          SP 800-37).
      p. Accreditation boundaries for agency information systems are not defined in accordance with
          government policies.
      q. Other
      r. Explanation for Other


                       DHS bases its risk management program on NIST SP 800-37, Revision 1, Guide for Applying
                      the Risk Management Framework to Federal Information Systems: A Security Life Cycle
                      Approach and incorporated the security authorization process into the DHS Sensitive Systems
                      Policy Directive 4300A for its unclassified systems. For national security systems, components
3. Comments:
                      follow the Defense Information Assurance Certification and Accreditation Process and DHS
                      Sensitive Systems Policy Directive 4300B policy.
                       Based on our review of 28 operational systems, we determined that the artifacts required to
                      authorize a system were either missing, incomplete, or outdated.




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                     Page 33

 Appendix E
 Status of Configuration Management Program

                        Section 3: Status of Configuration Management Program
                                                                                                       Response:
4. Check one:
 A. The Agency has established and is maintaining a security configuration management program
    that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines.
    Although improvement opportunities may have been identified by the OIG, the program
    includes the following attributes:
    1. Documented policies and procedures for configuration management.
    2. Standard baseline configurations defined.
    3. Assessing for compliance with baseline configurations.
    4. Process for timely, as specified in agency policy or standards, remediation of scan result
        deviations.
    5. For Windows-based components, FDCC/USGCB secure configuration settings fully
        implemented and any deviations from FDCC/USGCB baseline settings fully documented.
    6. Documented proposed or actual changes to hardware and software configurations.
    7. Process for timely and secure installation of software patches.
 B. The Agency has established and is maintaining a security configuration management program.
    However, the Agency needs to make significant improvements as noted below.                            �
 C. The Agency has not established a security configuration management program.


5. If B. is checked above, check areas that need significant improvement:
      a. Configuration management policy is not fully developed (NIST 800-53: CM-1).
      b. Configuration management procedures are not fully developed (NIST 800-53: CM-1).
      c. Configuration management procedures are not consistently implemented (NIST 800-53:
          CM-1).
      d. Standard baseline configurations are not identified for software components (NIST 800-53:
          CM-2).
      e. Standard baseline configurations are not identified for all hardware components
          (NIST 800-53: CM-2).
      f. Standard baseline configurations are not fully implemented (NIST 800-53: CM-2).
      g. FDCC/USGCB is not fully implemented (OMB) and/or all deviations are not fully
                                                                                                         f, g
          documented (NIST 800-53: CM-6).
      h. Software assessing (scanning) capabilities are not fully implemented (NIST 800-53: RA-5,
          SI-2).
      i. Configuration-related vulnerabilities, including scan findings, have not been remediated in
          a timely manner, as specified in agency policy or standards. (NIST 800-53: CM-4, CM-6,
          RA-5, SI-2).
      j. Patch management process is not fully developed, as specified in agency policy or
          standards. (NIST 800-53: CM-3, SI-2).
      k. Other
      l. Explanation for Other




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 34

 Appendix E
 Status of Configuration Management Program

                                                                                                     - Oracle

                                                                                                     - Security
                                                                                                     Enhanced
                                                                                                     Linux/Linux

                                                                                                     -Solaris

6. Identify baselines reviewed:                                                                      - Windows
    a. Software Name                                                                                 Server 2003
    b. Software Version
                                                                                                     - Window
                                                                                                     Server 2008

                                                                                                     - Cisco

                                                                                                     - Windows
                                                                                                     XP



                       Based on our review of 41 systems, we determined that DHS components had not fully
                       configured their systems based on DHS’ secure baseline configuration guidelines.
                       We determined that no component has fully implemented FDCC settings across its enterprise.
7. Comments:
                       Although components are developing and implementing USGCB compliant Windows 7 images,
                       no component is using Windows 7 as the primary operating system for its workstations.
                       OneNet gateway routers were not configured according to all DHS policies.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 35

 Appendix F
 Status of Incident Response and Reporting Program



                     Section 4: Status of Incident Response & Reporting Program
                                                                                                       Response:
8. Check one:
 A. The Agency has established and is maintaining an incident response and reporting program that
    is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines. Although
    improvement opportunities may have been identified by the OIG, the program includes the
    following attributes:
    1. Documented policies and procedures for detecting, responding to and reporting incidents.
    2. Comprehensive analysis, validation and documentation of incidents.                                 �
    3. When applicable, reports to US-CERT within established timeframes.
    4. When applicable, reports to law enforcement within established timeframes.
    5. Responds to and resolves incidents in a timely manner, as specified in agency policy or
         standards, to minimize further damage.
    6. Is capable of tracking and managing risks in a virtual/cloud environment, if applicable.
    7. Is capable of correlating incidents.
 B. The Agency has established and is maintaining an incident response and reporting program.
    However, the Agency needs to make significant improvements as noted below.
 C. The Agency has not established an incident response and reporting program.

9. If B. is checked above, check areas that need significant improvement:
     a. Incident response and reporting policy is not fully developed (NIST 800-53: IR-1).
     b. Incident response and reporting procedures are not fully developed or sufficiently detailed
          (NIST 800-53: IR-1).
     c. Incident response and reporting procedures are not consistently implemented in accordance
          with government policies (NIST 800-61, Rev1).
     d. Incidents were not identified in a timely manner, as specified in agency policy or standards
          (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
     e. Incidents were not reported to US-CERT as required (NIST 800-53, 800-61, and OMB
          M-07-16, M-06-19).
     f. Incidents were not reported to law enforcement as required (SP 800-86).
     g. Incidents were not resolved in a timely manner (NIST 800-53, 800-61, and OMB M-07-16,
          M-06-19).
     h. Incidents were not resolved to minimize further damage (NIST 800-53, 800-61, and OMB
          M-07-16, M-06-19).
     i. There is insufficient incident monitoring and detection coverage in accordance with
          government policies (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
     j. The agency cannot or is not prepared to track and manage incidents in a virtual/cloud
          environment.
     k. The agency does not have the technical capability to correlate incident events.
     l. Other
     m. Explanation for Other




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 36

 Appendix F
 Status of Incident Response and Reporting Program




10. Comments:




                   Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                Page 37

Appendix G
Status of Security Training Program

                             Section 5: Status of Security Training Program
                                                                                                       Response:
11. Check one:
 A. The Agency has established and is maintaining a security training program that is consistent
     with FISMA requirements, OMB policy, and applicable NIST guidelines. Although
     improvement opportunities may have been identified by the OIG, the program includes the
     following attributes:
     1. Documented policies and procedures for security awareness training.
     2. Documented policies and procedures for specialized training for users with significant
          information security responsibilities.                                                          �
     3. Security training content based on the organization and roles, as specified in agency policy
          or standards.
     4. Identification and tracking of the status of security awareness training for all personnel
          (including employees, contractors, and other agency users) with access privileges that
          require security awareness training.
     5. Identification and tracking of the status of specialized training for all personnel
          (including employees, contractors, and other agency users) with significant information
          security responsibilities that require specialized training.
 B. The Agency has established and is maintaining a security training program. However, the
     Agency needs to make significant improvements as noted below.

 C. The Agency has not established a security training program.




                       Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                    Page 38

Appendix G
Status of Security Training Program

12. If B. is checked above, check areas that need significant improvement:
    a. Security awareness training policy is not fully developed (NIST 800-53: AT-1).
    b. Security awareness training procedures are not fully developed and sufficiently detailed
         (NIST 800-53: AT-1).
    c. Security awareness training procedures are not consistently implemented in accordance
         with government policies (NIST 800-53: AT-2).
    d. Specialized security training policy is not fully developed (NIST 800-53: AT-3).
    e. Specialized security training procedures are not fully developed or sufficiently detailed in
         accordance with government policies (SP 800-50, SP 800-53).
    f. Training material for security awareness training does not contain appropriate content
         for the Agency (SP 800-50, SP 800-53).
    g. Identification and tracking of the status of security awareness training for personnel
         (including employees, contractors, and other agency users) with access privileges that
         require security awareness training is not adequate in accordance with government
         policies (SP 800-50, SP 800-53).
    h. Identification and tracking of the status of specialized training for personnel (including
         employees, contractors, and other agency users) with significant information security
         responsibilities is not adequate in accordance with government policies (SP 800-50,
         SP 800-53).
    i. Training content for individuals with significant information security responsibilities is
         not adequate in accordance with government policies (SP 800-53, SP 800-16).
    j. Less than 90% of personnel (including employees, contractors, and other agency users)
         with access privileges completed security awareness training in the past year.
    k. Less than 90% of employees, contractors, and other users with significant security
         responsibilities completed specialized security awareness training in the past year.
    l. Other
    m. Explanation for Other

                         DHS has documented policies and procedures for maintaining a security training program.
                         DHS has established a process to validate components’ security training and has an active
                         role in developing the content for DHS training requirements.
                         DHS has developed and implemented specialized training courses for those with significant
13. Comments:            IT security responsibilities, including information system security officers and system
                         administrators.
                         Specific training content for system owners and authorizing officials has yet to be finalized.
                         DHS utilizes an enterprise management tool to identify and track the status of specialized
                         training for all personnel with significant information security responsibilities.




                       Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                     Page 39

Appendix H
Status of Plans of Actions and Milestones Program

               Section 6: Status of Plans of Actions & Milestones (POA&M) Program
                                                                                                      Response:
14. Check one:
 A. The Agency has established and is maintaining a POA&M program that is consistent with
     FISMA requirements, OMB policy, and applicable NIST guidelines and tracks and monitors
     known information security weaknesses. Although improvement opportunities may have been
     identified by the OIG, the program includes the following attributes:
     1. Documented policies and procedures for managing IT security weaknesses discovered
         during security control assessments and requiring remediation.
                                                                                                         �
     2. Tracks, prioritizes and remediates weaknesses.
     3. Ensures remediation plans are effective for correcting weaknesses.
     4. Establishes and adheres to milestone remediation dates.
     5. Ensures resources are provided for correcting weaknesses.
     6. Program officials and contractors report progress on remediation to CIO on a regular basis,
         at least quarterly, and the CIO centrally tracks, maintains, and independently
         reviews/validates the POA&M activities at least quarterly.
 B. The Agency has established and is maintaining a POA&M program that tracks and remediates
     known information security weaknesses. However, the Agency needs to make significant
     improvements as noted below.
 C. The Agency has not established a POA&M program.




                       Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                    Page 40

Appendix H
Status of Plans of Actions and Milestones Program

15. If B. is checked above, check areas that need significant improvement:
    a. POA&M policy is not fully developed.
    b. POA&M procedures are not fully developed and sufficiently detailed.
    c. POA&M procedures are not consistently implemented in accordance with government
         policies.
    d. POA&Ms do not include security weaknesses requiring remediation, discovered during
         assessments of security controls. (OMB M-04-25).
    e. Remediation actions do not sufficiently address weaknesses in accordance with government
         policies (NIST SP 800-53, Rev. 3, Sect. 3.4 Monitoring Security Controls).
    f. Source of security weaknesses are not tracked (OMB M-04-25).
    g. Security weaknesses are not appropriately prioritized (OMB M-04-25).
    h. Milestone dates are not adhered to. (OMB M-04-25).
    i. Initial target remediation dates are frequently missed (OMB M-04-25).
    j. POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3, Control CA-5, and
         OMB M-04-25).
    k. Costs associated with remediating weaknesses are not identified (NIST SP 800-53, Rev. 3,
         Control PM-3 and OMB M-04-25).
    l. Agency CIO does not track and review POA&Ms (NIST SP 800-53, Rev. 3, Control CA-5,
         and OMB M-04-25).
    m. Other
    n. Explanation for Other

                      DHS requires components to create and manage POA&Ms for all known IT security
                      weaknesses.
                      DHS has developed policies and procedures for managing IT security weaknesses discovered
                      during security control assessments and requiring remediation.
                      As of June 30, 2011, DHS has 4,559 open POA&Ms. However, components are not entering
16. Comments:         and tracking all IT security weaknesses in DHS’ unclassified and classified enterprise
                      management tools, nor are all of the data entered by the components accurate and updated in a
                      timely manner.
                      DHS creates quarterly POA&M progress reports, tracking weakness remediation and
                      maintenance.




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                    Page 41

 Appendix I
 Status of Remote Access Program

                               Section 7: Status of Remote Access Program
                                                                                                       Response:
17. Check one:
 A. The Agency has established and is maintaining a remote access program that is consistent with
    FISMA requirements, OMB policy, and applicable NIST guidelines. Although improvement
    opportunities may have been identified by the OIG, the program includes the following
    attributes:
    1. Documented policies and procedures for authorizing, monitoring, and controlling all
        methods of remote access.
    2. Protects against unauthorized connections or subversion of authorized connections.                 �
    3. Users are uniquely identified and authenticated for all access.
    4. If applicable, multi-factor authentication is required for remote access.
    5. Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote
        electronic authentication, including strength mechanisms.
    6. Defines and implements encryption requirements for information transmitted across public
        networks.
    7. Remote access sessions, in accordance with OMB M-07-16, are timed-out after 30 minutes of
        inactivity after which re-authentication is required.
 B. The Agency has established and is maintaining a remote access program. However, the Agency
    needs to make significant improvements as noted below.
 C. The Agency has not established a program for providing secure remote access.

18. If B. is checked above, check areas that need significant improvement:
    a. Remote access policy is not fully developed (NIST 800-53: AC-1, AC-17).
    b. Remote access procedures are not fully developed and sufficiently detailed (NIST 800-53:
        AC-1, AC-17).
    c. Remote access procedures are not consistently implemented in accordance with government
        policies (NIST 800-53: AC-1, AC-17).
    d. Telecommuting policy is not fully developed (NIST 800-46, Section 5.1).
    e. Telecommuting procedures are not fully developed or sufficiently detailed in accordance
        with government policies (NIST 800-46, Section 5.4).
    f. Agency cannot identify all users who require remote access (NIST 800-46, Section 4.2,
        Section 5.1).
    g. Multi-factor authentication is not properly deployed (NIST 800-46, Section 2.2, Section 3.3).
    h. Agency has not identified all remote devices (NIST 800-46, Section 2.1).
    i. Agency has not determined all remote devices and/or end user computers have been
        properly secured (NIST 800-46, Section 3.1 and 4.2).
    j. Agency does not adequately monitor remote devices when connected to the agency's
        networks remotely in accordance with government policies (NIST 800-46, Section 3.2).
    k. Lost or stolen devices are not disabled and appropriately reported (NIST 800-46, Section
        4.3, US-CERT Incident Reporting Guidelines).
    l. Remote access rules of behavior are not adequate in accordance with government policies
        (NIST 800-53, PL-4).
    m. Remote access user agreements are not adequate in accordance with government policies
        (NIST 800-46, Section 5.1, NIST 800-53, PS-6).
    n. Other
    o. Explanation for Other




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 42

 Appendix I
 Status of Remote Access Program




19. Comments:




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                               Page 43

 Appendix J
 Status of Account and Identity Management Program

                   Section 8: Status of Account and Identity Management Program
                                                                                                        Response:
20. Check one:
 A. The Agency has established and is maintaining an identity and access management program
    that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines and
    identifies users and network devices. Although improvement opportunities may have been
    identified by the OIG, the program includes the following attributes:
    1. Documented policies and procedures for account and identity management.
    2. Identifies all users, including federal employees, contractors, and others who access Agency
         systems.
    3. Identifies when special access requirements (e.g., multi-factor authentication) are necessary.      �
    4. If multi-factor authentication is in use, it is linked to the Agency's PIV program where
         appropriate.
    5. Ensures that the users are granted access based on needs and separation of duties
         principles.
    6. Identifies devices that are attached to the network and distinguishes these devices from
         users.
    7. Ensures that accounts are terminated or deactivated once access is no longer required.
    8. Identifies and controls use of shared accounts.
 B. The Agency has established and is maintaining an identity and access management program
    that identifies users and network devices. However, the Agency needs to make significant
    improvements as noted below.
 C. The Agency has not established an identity and access management program.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 44

 Appendix J
 Status of Account and Identity Management Program

21. If B. is checked above, check areas that need significant improvement:
    a. Account management policy is not fully developed (NIST 800-53: AC-1).
    b. Account management procedures are not fully developed and sufficiently detailed (NIST
         800-53: AC-1).
    c. Account management procedures are not consistently implemented in accordance with
         government policies (NIST 800-53: AC-2).
    d. Agency cannot identify all User and Non-User Accounts (NIST 800-53, AC-2).
    e. Accounts are not properly issued to new users (NIST 800-53, AC-2).
    f. Accounts are not properly terminated when users no longer require access (NIST 800-53,
         AC-2).
    g. Agency does not use multi-factor authentication where required (NIST 800-53, IA-2).
    h. Agency has not adequately planned for implementation of PIV for logical access in
         accordance with government policies (HSPD 12, FIPS 201, OMB M-05-24, OMB M-07-06,
         OMB M-08-01, OMB M-11-11).
    i. Privileges granted are excessive or result in capability to perform conflicting functions
         (NIST 800-53, AC-2, AC-6).
    j. Agency does not use dual accounts for administrators (NIST 800-53, AC-5, AC-6).
    k. Network devices are not properly authenticated (NIST 800-53, IA-3).
    l. The process for requesting or approving membership in shared privileged accounts is not
         adequate in accordance to government policies.
    m. Use of shared privileged accounts is not necessary or justified.
    n. When shared accounts are used, the Agency does not renew shared account credentials
         when a member leaves the group.
    o. Other
    p. Explanation for Other

                  DHS does not use multi-factor authentication for access and identity management. However, DHS
                  is in the process of deploying HSPD-12 compliant credentials to the entire department with plans to
                  use the PIV cards for multi-factor authentication in FY 2012.
22. Comments:




                        Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 45

 Appendix K
 Status of Continuous Monitoring Program

                          Section 9: Status of Continuous Monitoring Program
                                                                                                           Response:
23. Check one:
 A. The Agency has established an enterprise-wide continuous monitoring program that assesses the
    security state of information systems that is consistent with FISMA requirements, OMB policy,
    and applicable NIST guidelines. Although improvement opportunities may have been identified
    by the OIG, the program includes the following attributes:
    1. Documented policies and procedures for continuous monitoring.                                           �
    2. Documented strategy and plans for continuous monitoring.
    3. Ongoing assessments of security controls (system-specific, hybrid, and common) that have
        been performed based on the approved continuous monitoring plans.
    4. Provides authorizing officials and other key system officials with security status reports
        covering updates to security plans and security assessment reports, as well as POA&M
        additions and updates with the frequency defined in the strategy and/or plans.
 B. The Agency has established an enterprise-wide continuous monitoring program that assesses the
    security state of information systems. However, the Agency needs to make significant
    improvements as noted below.
 C. The Agency has not established a continuous monitoring program.

24. If B. is checked above, check areas that need significant improvement:
    a. Continuous monitoring policy is not fully developed (NIST 800-53: CA-7).
    b. Continuous monitoring procedures are not fully developed (NIST 800-53: CA-7).
    c. Continuous monitoring procedures are not consistently implemented (NIST 800-53: CA-7;
         800-37 Rev 1, Appendix G).
    d. Strategy or plan has not been fully developed for enterprise-wide continuous monitoring
         (NIST 800-37 Rev 1, Appendix G).
    e. Ongoing assessments of security controls (system-specific, hybrid, and common) have not
         been performed (NIST 800-53, NIST 800-53A).
    f. The following were not provided to the authorizing official or other key system officials:
         security status reports covering continuous monitoring results, updates to security plans,
         security assessment reports, and POA&Ms (NIST 800-53, NIST 800-53A).
    g. Other
    h. Explanation for Other

                   DHS has established an entity-wide continuous monitoring program that assesses the security state
                   of information systems that is generally consistent with NIST and OMB FISMA requirements. For
                   example, DHS requires components to complete NIST SP 800-53 assessments and key control
                   reviews. In addition, we determined that:

                       DHS has developed policies and procedures to implement its continuous monitoring functions
                       and requirements. For example, CISO developed the DHS IT Security Continuous Monitoring
25. Comments:
                       Strategy: An Enterprise View in January 2011.
                       DHS’ revised continuous monitoring program is now focused at the asset level, which includes
                       the monitoring of system vulnerabilities, configuration settings, malware, patch information,
                       hardware, and software installed on its systems.
                       Not all components have provided authorizing officials with up-to-date security status reports
                       and documentation for all security authorization packages. For example, during our review of
                       28 system security plans, we identified three instances where documentation was out of date.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 46

 Appendix L
 Status of Contingency Planning Program

                         Section 10: Status of Contingency Planning Program
                                                                                                    Response:
26. Check one:
 A. The Agency established and is maintaining an enterprise-wide business continuity/disaster
    recovery program that is consistent with FISMA requirements, OMB policy, and applicable
    NIST guidelines. Although improvement opportunities may have been identified by the OIG,
    the program includes the following attributes:
    1. Documented business continuity and disaster recovery policy providing the authority and
        guidance necessary to reduce the impact of a disruptive event or disaster.
    2. The agency has performed an overall Business Impact Analysis (BIA).                             �
    3. Development and documentation of division, component, and IT infrastructure recovery
        strategies, plans and procedures.
    4. Testing of system specific contingency plans.
    5. The documented business continuity and disaster recovery plans are in place and can be
        implemented when necessary.
    6. Development of test, training, and exercise (TT&E) programs.
    7. Performance of regular ongoing testing or exercising of business continuity/disaster
        recovery plans to determine effectiveness and to maintain current plans.
 B. The Agency has established and is maintaining an enterprise-wide business continuity/disaster
    recovery program. However, the Agency needs to make significant improvements as noted
    below.
 C. The Agency has not established a business continuity/disaster recovery program.

27. If B. is checked above, check areas that need significant improvement:
    a. Contingency planning policy is not fully developed and contingency planning policy is not
         consistently implemented (NIST 800-53: CP-1).
    b. Contingency planning procedures are not fully developed (NIST 800-53: CP-1).
    c. Contingency planning procedures are not consistently implemented (NIST 800-53; 800-34).
    d. An overall business impact assessment has not been performed (NIST SP 800-34).
    e. Development of organization, component, or infrastructure recovery strategies and plans
         has not been accomplished (NIST SP 800-34).
    f. A business continuity/disaster recovery plan has not been developed (FCD1, NIST SP
         800-34).
    g. A business continuity/disaster recovery plan has been developed, but not fully
         implemented (FCD1, NIST SP 800-34).
    h. System contingency plans missing or incomplete (FCD1, NIST SP 800-34, NIST SP
         800-53).
    i. Systems contingency plans are not tested (FCD1, NIST SP 800-34, NIST SP 800-53).
    j. Test, training, and exercise programs have not been developed (FCD1, NIST SP 800-34,
         NIST 800-53).
    k. Test, training, and exercise programs have been developed, but are not fully implemented
         (FCD1, NIST SP 800-34, NIST SP 800-53).
    l. After-action report did not address issues identified during contingency/disaster recovery
         exercises (FCD1, NIST SP 800-34).
    m. Systems do not have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53).
    n. Alternate processing sites are subject to the same risks as primary sites (FCD1,
         NIST SP 800-34, NIST SP 800-53).
    o. Backups of information are not performed in a timely manner (FCD1, NIST SP 800-34,
         NIST SP 800-53).
    p. Backups are not appropriately tested (FCD1, NIST SP 800-34, NIST SP 800-53).



                        Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                     Page 47

  Appendix L
  Status of Contingency Planning Program

    q. Backups are not properly secured and protected (FCD1, NIST SP 800-34, NIST SP
       800-53).
    r. Contingency planning does not consider supply chain threats.
    s. Other
    t. Explanation for Other
                 DHS has established and is maintaining an entity-wide business continuity/disaster recovery
                 program that is generally consistent with NIST's and OMB's FISMA requirements. However,
                 based on our review of 28 security authorization packages, we determined that contingency plans
                 and/or testing reports for 6 systems are missing certain elements, including the identification of
                 alternate processing facilities, or restoration procedures, data sensitivity handling procedures at the
28. Comments: alternate site or offsite storage. In addition, one contingency plan is out of date.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                         Page 48

 Appendix M
 Status of Agency Program to Oversee Contractor Systems



                Section 11: Status of Agency Program to Oversee Contractor Systems
                                                                                                        Response:
29. Choose one:
 A. The Agency has established and maintains a program to oversee systems operated on its behalf
    by contractors or other entities, including Agency systems and services residing in the cloud
    external to the Agency. Although improvement opportunities may have been identified by the
    OIG, the program includes the following attributes:
    1. Documented policies and procedures for information security oversight of systems operated
        on the Agency's behalf by contractors or other entities, including Agency systems and
        services residing in public cloud.
    2. The Agency obtains sufficient assurance that security controls of such systems and services
        are effectively implemented and comply with federal and agency guidelines.
    3. A complete inventory of systems operated on the Agency's behalf by contractors or other             �
        entities, including Agency systems and services residing in public cloud.
    4. The inventory identifies interfaces between these systems and Agency-operated systems.
    5. The agency requires appropriate agreements (e.g., MOUs, Interconnection Security
        Agreements, contracts, etc.) for interfaces between these systems and those that it owns and
        operates.
    6. The inventory of contractor systems is updated at least annually.
    7. Systems that are owned or operated by contractors or entities, including Agency systems
        and services residing in public cloud, are compliant with FISMA requirements, OMB policy,
        and applicable NIST guidelines.
 B. The Agency has established and maintains a program to oversee systems operated on its behalf
    by contractors or other entities, including Agency systems and services residing in public cloud.
    However, the Agency needs to make significant improvements as noted below.
 C. The Agency does not have a program to oversee systems operated on its behalf by contractors or
    other entities, including Agency systems and services residing in public cloud.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 49

 Appendix M
 Status of Agency Program to Oversee Contractor Systems



30. If B. is checked above, check areas that need significant improvement:
    a. Policies to oversee systems operated on the Agency's behalf by contractors or other entities,
         including Agency systems and services residing in public cloud, are not fully developed.
    b. Procedures to oversee systems operated on the Agency's behalf by contractors or other
         entities, including Agency systems and services residing in public cloud, are not fully
         developed.
    c. Procedures to oversee systems operated on the Agency's behalf by contractors or other
         entities, including Agency systems and services residing in public cloud are not consistently
         implemented.
    d. The inventory of systems owned or operated by contractors or other entities, including
         Agency systems and services residing in public cloud, is not complete in accordance with
         government policies (NIST 800-53: PM-5).
    e. The inventory does not identify interfaces between contractor/entity-operated systems to
         Agency owned and operated systems.
    f. The inventory of contractor/entity-operated systems, including interfaces, is not updated at
         least annually.
    g. Systems owned or operated by contractors and entities are not subject to NIST and OMB's
         FISMA requirements (e.g., security requirements).
    h. Systems owned or operated by contractor's and entities do not meet NIST and OMB's
         FISMA requirements (e.g., security requirements).
    i. Interface agreements (e.g., MOUs) are not properly documented, authorized, or maintained.
    j. Other
    k. Explanation for Other



                       DHS has established and maintains a program to oversee systems operated on its behalf by
31. Comments:
                       contractors or other entities.




                         Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                      Page 50

Appendix N
Status of Security Capital Planning Program



                        Section 12: Status of Security Capital Planning Program
                                                                                                      Response:
32. Check one:
 A. The Agency has established and maintains a security capital planning and investment program
     for information security. Although improvement opportunities may have been identified by the
     OIG, the program includes the following attributes:
     1. Documented policies and procedures to address information security in the capital
          planning and investment control process.
     2. Includes information security requirements as part of the capital planning and investment
          process.                                                                                       �
     3. Establishes a discrete line item for information security in organizational programming
          and documentation.
     4. Employs a business case/Exhibit 300/Exhibit 53 to record the information security
          resources required.
     5. Ensures that information security resources are available for expenditure as planned.
 B. The Agency has established and maintains a capital planning and investment program.
    However, the Agency needs to make significant improvements as noted below.
 C. The Agency does not have a capital planning and investment program.

33. If B. is checked above, check areas that need significant improvement:
    a. CPIC information security policy is not fully developed.
    b. CPIC information security procedures are not fully developed.
    c. CPIC information security procedures are not consistently implemented.
    d. The Agency does not adequately plan for IT security during the CPIC process (SP 800-65).
    e. The Agency does not include a separate line for information security in appropriate
         documentation (NIST 800-53: SA-2).
    f. Exhibits 300/53 or business cases do not adequately address or identify information security
         costs (NIST 800-53: PM-3).
    g. The Agency does not provide IT security funding to maintain the security levels identified.
    h. Other
    i. Explanation for Other




                      Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                                   Page 51

Appendix N
Status of Security Capital Planning Program


                        DHS has established and maintains a security capital planning and investment program for 

                        information security. For example:


                          DHS bases its CPIC process on OMB’s Circular A-11, Part 7 - Planning, Budgeting, 

                          Acquisition, and Management of Capital Assets which defines the policies for planning, 

34. Comments:             budgeting, acquiring, and managing federal capital assets.20 In addition, DHS developed the 

                          CPIC Guide in August 2010. 

                          DHS has developed an automated process to help ensure that the Department’s IT and non-IT 

                          investments are successfully managed, cost effective, and support DHS’ mission and strategic 

                          goals.

                          During FY 2011, DHS has completed 94 Exhibit 300s for its major IT investments.





20
     OMB’s Circular A-11, Part 7 – Planning, Budgeting, Acquisition, and Management of Capital Assets,
     June 2008.




                          Evaluation of DHS’ Information Security Program for Fiscal Year 2011

                                                       Page 52
Appendix O
Major Contributors to this Report


                    Information Security Audit Division

                    Chiu-Tong Tsang, Director
                    Aaron Zappone, Team Lead
                    Amanda Strickler, IT Specialist
                    Michael Kim, IT Auditor
                    David Bunning, IT Specialist
                    Joseph Landas, Management/Program Assistant
                    Angeline De Chiara, Management/Program Assistant
                    Hannah Schneider, Management/Program Assistant
                    Gregory Wilson, Management/Program Assistant
                    Hans Petrich, Management/Program Assistant
                    Erin Dunham, Referencer




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                               Page 53

Appendix P
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer
                      Deputy Chief Information Officer
                      Chief Financial Officer
                      Chief Information Security Officer
                      Director, GAO/OIG Liaison Office
                      Director, Compliance and Oversight Program, Office of CIO
                      Deputy Director, Compliance and Oversight Program, Office of CIO
                      Chief Information Officer Audit Liaison
                      Chief Information Security Officer Audit Liaison
                      Component CIOs
                      Component CISOs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  Evaluation of DHS’ Information Security Program for Fiscal Year 2011


                                               Page 54

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
